               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    J.T. Weeker (Chicago) International
   Service Center – International Airmail
              Records Unit

                       Audit Report




                                              October 31, 2011

Report Number FT-AR-12-002
                                                                         October 31, 2011

                                            J.T. Weeker (Chicago) International Service
                                            Center – International Airmail Records Unit

                                                           Report Number FT-AR-12-002



IMPACT ON:
International mail records processed at        direct them to immediately change their
the Chicago International Airmail              passwords; provide formal training on a
Records Unit (records unit).                   regular basis to all employees, including
                                               supervisors, regarding standard
WHY THE OIG DID THE AUDIT:                     operating procedures (SOP) on the
Our objective was to determine if the          proper process for using verification
records unit processes international mail      notes; reiterate the requirements for
transactions timely and accurately to          weekly verification note audits and
ensure that the St. Louis International        ensure they are conducted in
Accounting Branch can correctly and            accordance with the SOP; and revise
timely bill the foreign postal                 the SOP to require records unit clerks to
administrations.                               review and modify previously resolved
                                               records, as appropriate, upon the
WHAT THE OIG FOUND:                            subsequent receipt of supporting
The J.T. Weeker (Chicago) records unit         documentation.
generally processed international mail
transactions timely and accurately.            WHAT MANAGEMENT SAID:
However, system access identifications         Management agreed with our findings
and passwords were not always                  and recommendations. They reiterated
properly controlled. Also, the records         password security requirements, began
unit supervisor did not always properly        conducting and documenting SOP
complete weekly verification note audits       training, and employees noted in our
and records unit clerks did not always         report changed their passwords.
submit verification notes in accordance        International Accounting began
with Postal Service procedures. Further,       reviewing and providing feedback on
we found a Chicago records unit clerk          weekly audits and will issue a revised
did not modify a letter post dispatch          SOP in January 2012.
record when the records unit later
received supporting documentation from         AUDITORS’ COMMENTS:
the San Francisco International Service        The OIG considers management’s
Center to support a greater weight for         comments responsive to the
the dispatch.                                  recommendations and corrective actions
                                               should resolve the issues identified in
WHAT THE OIG RECOMMENDED:                      the report.
We recommended management provide
information security training to all           Link to review the entire report
Chicago records unit personnel and
October 31, 2011

MEMORANDUM FOR:            RICHARD G. LOUTSCH
                           MANAGER, INTERNATIONAL ACCOUNTING

                           GERALD J. KUBICK
                           PLANT MANAGER, J.T. WEEKER (CHICAGO)
                            INTERNATIONAL SERVICE CENTER.




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – J.T. Weeker (Chicago) International Service
                           Center – International Airmail Records Unit
                           (Report Number FT-AR-12-002)

This report presents the results of our audit of the J.T. Weeker (Chicago) International
Service Center – International Airmail Records Unit (Project Number 11BM002FT001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc:   Joseph Corbett
      Timothy F. O'Reilly
      Deborah Giannoni-Jackson
      Brent A. Raney
      David E. Williams
      Robin M. Stewart
      Steven R. Phelps
      Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

ACE Logon IDs and Passwords ...................................................................................... 2

Verification Notes ............................................................................................................ 2

Supporting Documentation Received After Record Resolution ....................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Statistical Sampling for Inbound International Mail at the
Chicago IAMRU............................................................................................................. 10

Appendix C: Management’s Comments ........................................................................ 11
J.T. Weeker (Chicago) International Service Center -                                                      FT-AR-12-002
 International Airmail Records Unit



Introduction

This report presents issues pertaining to inbound international mail at the J.T. Weeker
(Chicago) International Service Center (ISC) – International Airmail Records Unit
(records unit). We identified these issues during our audit of fiscal year (FY) 2011 U.S.
Postal Service Financial Statements – St. Louis Information Technology and Accounting
Service Center (Project 11BM002FT001). The objective was to determine if the records
units process inbound international mail transactions timely and accurately to ensure
that the St. Louis International Accounting Branch (accounting branch) can correctly and
timely bill foreign postal administrations.1 This audit was self-initiated and addressed
financial risk. See Appendix A for additional information about this audit.

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the U.S. Foreign postal administrations pay the Postal Service for sorting, dispatching,
and delivering inbound international mail at ISCs. The Postal Service developed the
Global Business System to assist in streamlining the processing of international mail,
and it is comprised of the Receipt System, the Dispatch System, and the International
Reconciliation System. 2 The International Reconciliation System assesses all records
based on a set of validation rules and assigns a validation status (pass or fail) to each
record. One reason records may fail the initial validation status is scan data from the
Receipts System does not agree to the electronic data interface (EDI) data3 received
from the foreign postal administration. When this occurs, records unit clerks are
required to resolve the failed record. Specifically, records unit clerks update the
International Reconciliation System records with the most reliable data source within
established timelines to complete the validation process. Records unit clerks sometimes
use a verification note4 as a tool in this process.

Conclusion

The J.T. Weeker (Chicago) records unit generally processed international mail
transactions timely and accurately to ensure that the St. Louis accounting branch
correctly and timely billed the foreign postal administrations. However, Chicago records
unit personnel’s Advanced Computing Environment (ACE) (logon) identifications (IDs)
and passwords were not always properly controlled. When logon IDs and passwords
are not controlled, unauthorized persons may gain access to the financial transaction
processing functions of application programs or resultant data records, enabling them to

1
  Posts outside the U.S. where mail is sent and received.
2
  The Receipt System captures the initial scan of international mail at the inbound receiving terminals. The Dispatch
System captures the scan of outbound mail. The International Reconciliation System supports records units in
completing their work and aids in tracking international mail records, identifying issues, and reconciling discrepancies.
3
  Foreign postal administrations can provide EDI data to the Postal Service before mail arrives at the ISCs. EDI data
contains dispatch information, including dispatch date, and is pre-populated into the Receipt System. When receiving
unit personnel scan the bar code on mail upon arrival at the ISC, the scan retrieves the EDI data and compares it to
the receiving unit data.
4
  These notes are formal messages between postal administrations that relay information regarding the exchange of
mail, in particular irregularities in the preparation, dispatch, and receipt of mail.
                                                               1
J.T. Weeker (Chicago) International Service Center -                                              FT-AR-12-002
 International Airmail Records Unit


read, alter, add, or delete information in data files or to enter unauthorized financial
transactions for processing.

In addition, records unit personnel did not always perform a complete weekly audit of
verification notes and submit verification notes in accordance with Postal Service
procedures. Also, we found a records unit clerk did not modify a letter post dispatch
record when the unit later received supporting documentation from the San Francisco
ISC to support a greater weight for the dispatch. When personnel do not follow
established procedures, revenue could be inaccurately recorded, and foreign postal
administrations could delay acceptance of the billing and, therefore, delay cash
collection.

ACE5 Logon IDs and Passwords

Chicago records unit personnel’s ACE logon IDs and passwords were not always
properly controlled. Specifically,   employees provided their logon IDs and passwords6
to the supervisor who stored them together in a notebook in an unsecured desk drawer.
The                                     obtained the IDs and passwords for the
12 employees because of a misunderstanding in direction provided during the
installation of the Global Business System software on the employees’ workstations.
Also, subsequent discussions disclosed that       had not received information security
training.

Postal Service policies state that personnel must protect logon IDs. Also, passwords
used to connect to Postal Service information resources must be treated as sensitive
information and should not be disclosed to anyone other than the authorized user,
including system administrators and technical support staff.7

When personnel share logon IDs and passwords, unauthorized persons may gain
access to the financial transaction processing functions of application programs or
resultant data records, enabling them to read, alter, add, or delete information resident
in data files or to enter unauthorized financial transactions for processing.

Verification Notes

Chicago records unit personnel did not always properly complete weekly verification
note audits and submit verification notes in accordance with Postal Service procedures.
Specifically:

   Although verification notes audits were performed each week as required, for 6 of
    the 31 weeks reviewed, the                         did not include the proper

5
  The enterprise infrastructure that supports the planning, design, implementation, and ongoing management of
Postal Service-distributed computing. ACE replaces outdated and incompatible technologies with upgraded,
cost-effective, and easy-to-use systems and centralized support.
6
  Through their ACE IDs and passwords, records unit clerks have access to all Global Business System subsystems,
including the Receipt System, International Reconciliation System, and Dispatch System.
7
  Handbook AS-805, Information Security Services, dated May 2011, Chapter 9, Sections 5 and 6.


                                                       2
J.T. Weeker (Chicago) International Service Center -                                                     FT-AR-12-002
 International Airmail Records Unit


    number or mix of inbound and outbound records. For example, for 1 week, the
                             only completed three verification note audits (six are
    required), all for inbound mail (three inbound and three outbound records are
    required when they exist).8

   Of the 120 international inbound billing records9 we traced to supporting
    documentation and/or data, we found records unit clerks did not submit verification
    notes to the foreign postal administrations for five Express Mail® and two Parcel
    Post® records.10

   Of the 25 supporting documents we traced to billing records,11 we found one
    instance where the records unit clerk did not submit a verification note to the foreign
    postal administration for a letter post mail dispatch.

Postal Service procedures12 require records unit clerks to submit verification notes to
the foreign postal administration when conflicts that exist between electronic data from
the Receipt System and EDI data exceed a stated threshold and the records unit does
not have source documentation. For Express Mail and Parcel Post mail, verification
notes are used to request supporting documentation or to notify the foreign postal
administrations of the electronic data (Receipt System or EDI) used for billing in the
absence of supporting documentation from the foreign postal administration. For letter
post mail, verification notes are used to notify foreign postal administrations of the
electronic data (Receipt System) used for billing in the absence of supporting
documentation from the foreign postal administration. Postal Service procedures and a
key Sarbanes-Oxley (SOX) control13 require the records unit supervisor to audit six
verification notes, on a weekly basis, to verify the accuracy and timeliness of the
verification notes.

According to the                                did not always properly complete
verification note audits due to an oversight. In addition, management did not monitor her
performance of these audits. Also, she stated that records unit clerks did not always
submit verification notes because procedures were constantly changing, so they did not
always fully understand them.

8
  The                           did include other required aspects of the weekly verification note audit, such as
selecting different classes of mail, originating and destination countries, and records unit clerks who completed the
notes.
9
  The sample consisted of 60 international inbound records from both the Chicago and San Francisco ISCs. Effective
April 2010, the Chicago records unit became responsible for validating the mail records for both the Chicago and the
San Francisco ISCs.
10
   Express Mail and Parcel Post are trademarks of the Postal Service.
11
   We judgmentally sampled and tested these items for completeness. Assertions about completeness deal with
whether assets or liabilities that should be in the financial statements are included.
12
   International Airmail Records Unit Standard Operating Procedures, effective August 4, 2010, Section 6.3.
13
   International Air Mail Records Unit Standard Operating Procedures, Section 16.1, and Postal Service SOX key
control number 114.CA010. A key control is a control that, if it fails, there is at least a reasonable likelihood that a
material error in the financial statements would not be prevented or detected on a timely basis. This key control
addresses completeness and existence. Assertions about completeness deal with whether assets or liabilities that
should be in the financial statements are included. Assertions about existence deal with whether assets or liabilities
exist at a given date.


                                                           3
J.T. Weeker (Chicago) International Service Center -                                                   FT-AR-12-002
 International Airmail Records Unit



When verification notes are not properly submitted, there is risk the foreign postal
administration could delay its acceptance of the billing and, therefore, delay revenue
receipt for the Postal Service. Also, weekly audits of verification notes are important to
ensure communication to foreign postal administrations is adequate and that the
accounting branch has the evidence needed to support the billing settlement process.
Further, without adequate monitoring controls, records unit supervisors miss
opportunities to address errors in inbound mail data that could cause inaccurate
recording of revenue, delay the foreign postal administration’s acceptance of the billing,
and delay cash collection.

Management advised that, starting in July 2011, Headquarters International Accounting
began monitoring weekly verification note audits to ensure records unit supervisors
conduct them in accordance with Postal Service procedures. In addition, the Chicago
                        counseled                               regarding proper
application of procedures for issuing verification notes.

Supporting Documentation Received After Record Resolution

We found a                               did not revise a failed letter post dispatch record
when the unit later received supporting documentation from the San Francisco ISC to
support a greater weight for the dispatch.14 This occurred because the current SOP
does not require records unit clerks to revisit failed records after they have been
resolved, except upon the foreign postal administration’s response to a verification note.

Effective April 2010, the Chicago records unit became responsible for validating the mail
records for both the Chicago and the San Francisco ISCs. With this change, personnel
at the San Francisco ISC must mail supporting documentation from the foreign postal
administrations to the Chicago ISC. However, Chicago records unit personnel may not
always receive this supporting documentation in time to resolve failed records, and
procedures have not been updated to allow for considering information received
subsequent to failed record resolution. As a result, the subject dispatch contained
incorrect weight data, and the accounting branch underbilled the Vanuatu Foreign
Postal Administration by approximately $328.

As a result of our audit,                           revised the dispatch weight in the
International Reconciliation System, and on June 23, 2011, the St. Louis International
Accounting Branch sent a supplemental bill to the Vanuatu Foreign Postal
Administration for the underbilled amount.




14
     This is the same instance where     did not send a verification note for a letter post mail dispatch.


                                                       4
J.T. Weeker (Chicago) International Service Center -                           FT-AR-12-002
 International Airmail Records Unit


Recommendations

We recommend the plant manager, J.T. Weeker (Chicago) International Service Center:

1. Train all Chicago International Airmail Records Unit personnel with access to the
   Postal Service’s information systems on information security policies.

2. Direct all employees at the Chicago International Airmail Records Unit to
   immediately change their passwords per Postal Service policy.

3. Provide formal training on a regular basis to all Chicago International Airmail
   Records Unit employees, including supervisors, regarding standard operating
   procedures on the proper process for using verification notes.

4. Reiterate the requirements for weekly verification note audits and ensure they are
   conducted in accordance with standard operating procedures.

We recommend the manager, International Accounting:

5. Revise the International Airmail Records Unit Standard Operating Procedures to
   require clerks to review and modify previously resolved records, as appropriate,
   upon the subsequent receipt of supporting documentation.

Management’s Comments

Management agreed with our findings and recommendations and issued a Direct Line
notice to all Chicago ISC employees on September 12, 2011, emphasizing the need for
password security. Subsequent to the receipt of the response, management informed
us that the noted employees that disclosed their passwords to their supervisor
subsequently changed their passwords. Management also initiated ongoing, bi-weekly
SOP training and will document the training monthly. In addition, management will
conduct and document weekly audits of verification notes, with International Accounting
reviewing and providing feedback on the audits. These corrective actions began
September 2011. Finally, International Accounting management agreed to revise
procedures to require records unit clerks to review and modify previously resolved
records as part of a comprehensive SOP update planned for release in January 2012.
See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.




                                                       5
J.T. Weeker (Chicago) International Service Center -                                                   FT-AR-12-002
 International Airmail Records Unit



                                 Appendix A: Additional Information

Background

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the U.S. Foreign postal administrations pay the Postal Service for sorting and
dispatching inbound international mail at the ISCs. Currently, six ISCs in New York,
Miami, Chicago, Los Angeles, San Francisco, and Honolulu, as well as the New Jersey
Network Distribution Center (NDC), process international mail. In FY 2010, revenue for
international inbound mail was approximately $352 million.

The Postal Service developed the Global Business System to assist in streamlining the
processing of international mail. The overall framework of the system is comprised of
the Receipt System, the Dispatch System, and the International Reconciliation System.

    The Receipt System captures the initial scan of international mail at the inbound
     receiving terminals.

    The Dispatch System captures the scan of outbound mail.

    The International Reconciliation System supports the records unit in completing its
     work by tracking international mail records, identifying issues, and reconciling
     discrepancies.

A mail dispatch may contain more than one receptacle,15 and each receptacle has an
attached label generated by the country of origin. When inbound international mail
arrives at an ISC, the airline provides it to the receiving unit where ISC personnel scan
the label through the Receipt System to capture receptacle information. ISC personnel
collect the billing documents16 attached to or enclosed with the receptacles and provide
them to the appropriate records unit personnel.

Currently, five records units in Chicago, Los Angeles, New York, Honolulu, and New
Jersey validate mail records for the six ISCs and the one NDC17 before the data is
transmitted from the International Reconciliation System to the Foreign Post Settlement
System and, subsequently, to the St. Louis International Accounting Branch for billing
the appropriate foreign postal administrations. The major responsibility of records unit
clerks is to resolve failed dispatch records18 in the International Reconciliation System.


15
   Receptacles include trays, sacks, and boxes that usually contain more than one piece of mail.
16
   Billing documents include CN31 – Letter Bills, CP86 or CP87 – Parcel Bills, Express Mail manifests, and others.
They come from the country of origin.
17
   The Chicago records unit is responsible for the records of the Chicago ISC and the San Francisco ISC. The Los
Angeles records unit is responsible for the records of the Los Angeles ISC and the Miami ISC. The other three
records units are responsible for the corresponding city ISC/NDC.
18
   Records that failed validation checks and must be corrected by the records unit so the accounting branch can bill
the foreign postal administration accurately.


                                                          6
J.T. Weeker (Chicago) International Service Center -                                                      FT-AR-12-002
 International Airmail Records Unit


The International Reconciliation System assesses all of the records based on a set of
validation rules and assigns a validation status (pass or fail) to each record. One reason
records may fail the initial validation status is because the scan data from the Receipts
System does not agree with the EDI data received from the foreign postal
administration. When this occurs, records unit clerks are required to update
International Reconciliation System records within established timeframes, with the
most reliable data source, to complete the validation process. Records unit clerks
sometimes use verification notes as a tool in this process. Records unit supervisors are
responsible for monitoring the resolution of failed records, tracking verification notes,19
and performing audits of verification notes.20

Inbound international mail, the focus of this audit, is billed by dispatch. Letter post
dispatches are billed based on dispatch weight and the weight and piece count of any
additional letter post category, such as International Business Reply Service and
Registered Mail™.21 Parcel Post and Express Mail dispatches are billed based on
dispatch weight and piece count.

Objective, Scope, and Methodology

The objective of this portion of the audit is to determine if records units process
international mail transactions timely and accurately to ensure that the St. Louis
International Accounting Branch can correctly and timely bill foreign postal
administrations. This report addresses work performed at the Chicago records unit.

To accomplish our objective, we traced billing data residing in the Foreign Post
Settlement System to inbound international letter post, Parcel Post, and Express Mail
source documents; verification notes; and/or International Reconciliation System data.
Since records unit clerks are not required to resolve failed records for exclusion
countries22 and other special case exceptions,23 we excluded them from our universe.
We randomly selected samples of 60 dispatch records each for the Chicago ISC and
the San Francisco ISC. The universe of transactions for all mail types was from
October 1, 2010, through March 31, 2011. See Appendix B for our statistical sampling
of the three types of mail.



19
   To track verification notes, records unit supervisors complete Verification Note Volume Reports weekly. They must
indicate the number of verification notes that are outstanding according to the age of the verification note. The goal is
to reduce to zero the number of verification notes that are over 30 days old.
20
   On a weekly basis, the records unit supervisor audits six verification notes of adjusted mail data to verify the
accuracy and timeliness of verification notes created and responded to in accordance with Universal Postal Union
and Postal Service policy.
21
   Registered Mail is a trademark of the Postal Service.
22
   Exclusion countries, currently over 70 of them, agree to settle some of their mail types, if not all, using EDI
messaging and, therefore, manual adjustments by the records unit are not necessary.
23
   Special case exceptions for failed records include the Netherlands and Canada for all mail subclasses, China for
Express Mail, and all inbound international direct entry records. Inbound international direct entry is an international
mail service in which a foreign-based customer pays postage to his or her home postal administration for dispatch
and entry into the Postal Service domestic system. Items are prepared in accordance with Postal Service domestic
requirements and bear Postal Service postal markings and a U.S. return address.


                                                            7
J.T. Weeker (Chicago) International Service Center -                                                   FT-AR-12-002
 International Airmail Records Unit


In addition, we judgmentally selected 25 source documents on site at the Chicago
records unit from the Chicago ISC and the San Francisco ISC data combined, with
dispatch dates between October 1, 2010, and March 31, 2011. We traced these source
documents to billing data.

Further, we reviewed all weekly verification note audits and all Parcel Post failed
records for the same timeframe for compliance with procedures. We also observed the
time-out feature24 of the Receipt System at the ISC.

We conducted this audit from April through October 2011 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management on September 9, 2011, and included their comments
where appropriate.

We relied on computer-generated data from the Global Business System and the
Foreign Post Settlement System to develop our findings. We assessed the reliability of
the data on these applications by tracing selected information on inbound international
mail volumes to supporting source documents, verification notes, and/or other system
data. We determined that the data was sufficiently reliable for the purposes of this
report.




24
   A "time-out" feature provides protection if the computer is unattended and the user has not logged out from the
system. After a period of time of not being used, the system will end or time-out and prompt the user for a password
for re-entry.


                                                          8
J.T. Weeker (Chicago) International Service Center -                                          FT-AR-12-002
 International Airmail Records Unit


Prior Audit Coverage

                        Report          Final Report       Monetary
  Report Title          Number              Date            Impact               Report Results
Miami ISC –         FT-AR-08-012          9/3/2008         $2,084,620   We determined that manually
Inbound                                                                 entered dispatches for inbound
International                                                           international Express Mail were
Mail                                                                    not always billed to foreign postal
                                                                        administrations. This issue
                                                                        affected Express Mail data from
                                                                        the Miami and Chicago ISCs only
                                                                        after the Receipt Application was
                                                                        implemented, but before the
                                                                        International Reconciliation
                                                                        System was implemented on
                                                                        February 1, 2008. Therefore, this
                                                                        issue did not affect future billing
                                                                        periods. Because management
                                                                        took corrective action we did not
                                                                        make any recommendations.
Los Angeles         FT-AR-10-001         10/13/2009        $163,000      We determined that volume data
International                                                            used to bill foreign postal
Service Center                                                           administrations for inbound
– Inbound                                                                international letter post, Parcel
International                                                            Post, and Express Mail service
Mail                                                                     was not always accurate and
                                                                         properly supported. Management
                                                                         agreed to our recommendations
                                                                         to finalize and communicate
                                                                         procedures for international
                                                                         records unit personnel to follow
                                                                         when validating dispatches and to
                                                                         expedite approved system
                                                                         change requests to enable the
                                                                         International Reconciliation
                                                                         System to reconcile data and
                                                                         provide valid dispatch level data
                                                                         for billing.
Fiscal Year         FT-AR-11-009         3/31/2011         $0.00         The Chicago records unit
2010 Postal                                                              supervisor did not review inbound
Service                                                                  verification notes created by
Financial                                                                records unit clerks. Because of
Statements                                                               the corrective action taken, we
Audit – St.                                                              made no recommendations.
Louis
Information
Technology &
Accounting
Service Center




                                                       9
J.T. Weeker (Chicago) International Service Center -                                 FT-AR-12-002
 International Airmail Records Unit


               Appendix B: Statistical Sampling for Inbound International Mail
                                   at the Chicago IAMRU

The overall objective of the audit was to determine if the Chicago records unit
processes international mail transactions timely and accurately to ensure that the
St. Louis International Accounting Branch can correctly and timely bill the foreign postal
administration. In support of this objective, we employed a simple random sample for
each ISC.

We selected three of the five records units based on mail volume. The three records
units selected (Chicago, Los Angeles, and New York) handled approximately 90 percent
of the inbound mail data in Quarters 1 and 2 of FY 2011.25

The audit universe consisted of 11,987 inbound international mail records processed at
the Chicago records unit — 8,567 records for the San Francisco ISC and 3,420 records
for the Chicago ISC for the period October 1, 2010, through March 31, 2011. We used
unrestricted random sampling of records for each ISC. We based our sample sizes,
60 records for each ISC, on simple random hypothesis testing which is a type of simple
random attribute sampling.

The Chicago records unit consisted of the following universe of inbound data:


                                                             Express
                             Total             Parcel          Mail      Empty        Letter
      ISC                  Records              Post         Service   Receptacles    Post
 San Francisco               8,567             1,225          2,092         0         5,250
   Chicago                   3,420               197          1,136        10         2,077
    Totals                  11,987             1,422          3,228        10         7,327

We randomly selected samples of 60 dispatch records for both the Chicago and the San
Francisco ISCs as follows:


                                                             Express
                            Sample             Parcel          Mail      Empty        Letter
      ISC                    Size               Post         Service   Receptacles    Post
 San Francisco                60                 13            15          0           32
   Chicago                    60                  3            23          0           34
    Totals                    120                16            38          0           66




25
     This report focuses on the Chicago ISC.


                                                        10
J.T. Weeker (Chicago) International Service Center -            FT-AR-12-002
 International Airmail Records Unit


                            Appendix C: Management’s Comments




                                                       11
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       12
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       13
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       14
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       15
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       16
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       17
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       18
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       19
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       20
J.T. Weeker (Chicago) International Service Center -        FT-AR-12-002
 International Airmail Records Unit




                                                       21
